APPENDIX

1a
APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH
CIRCUIT
No. 19-13537
D.C. Docket No. 2:18-cv-00514-ACA
THOMAS E. REYNOLDS,
PLAINTIFF - APPELLANT,
v.
BEHRMAN CAPITAL IV L.P., AXA PRIMARY FUND
AMERICA IV LP, AXA PRIVATE CAPITAL I, LP, CORE
AMERICAS/GLOBAL HOLDINGS, LP, GLOBAL FUND
PARTNERS II, LP, ET AL., DEFENDANTS - APPELLEES,
BEHRMAN BROTHERS MANAGEMENT CORPORATION, ET
AL., DEFENDANTS.
Appeal from the United States District Court
for the Northern District of Alabama
(February 23, 2021)

2a
Before JORDAN, LAGOA, and BRASHER, Circuit
Judges.
JORDAN, Circuit Judge:
Thomas Reynolds, the Chapter 7 trustee for the
bankruptcy estates of Atherotech Inc. and Atherotech
Holdings, appeals the dismissal of his complaint for lack
of personal jurisdiction. The district court, following removal of the case from Alabama state court, applied the
doctrine of derivative jurisdiction articulated in Lambert Run Coal Co. v. Baltimore & O.R. Co., 258 U.S. 377,
382 (1922), and ruled that because the state court did not
have personal jurisdiction over the defendants under Alabama’s long-arm statute, it too lacked personal jurisdiction. In so ruling, the district court concluded that Mr.
Reynolds could not rely on Bankruptcy Rule 7004(d)
(which looks to a defendant’s national contacts and permits nationwide service of process) to establish personal
jurisdiction. And it denied as futile Mr. Reynolds’ motion to transfer the case to the Southern District of New
York under 28 U.S.C. § 1406, explaining that under the
doctrine of derivative jurisdiction a New York district
court would likewise lack personal jurisdiction over the
defendants.
The Supreme Court has applied the doctrine of derivative jurisdiction only with respect to subject-matter
jurisdiction, so that if a state court lacks subject-matter
jurisdiction over a case when it is initially filed, a federal
court also lacks subject-matter jurisdiction when the
case is removed (even if the federal court would have had
jurisdiction had the case originally been filed in a federal
forum). The main question for us in this appeal is
whether the doctrine applies when the state court from

3a
which the case is removed lacks personal jurisdiction
over the defendants.

I
We accept as true, at this stage of the litigation, the
facts as alleged in the complaint filed by Mr. Reynolds in
Alabama state court (and later amended in federal
court). See Louis Vuitton Malletier, S.A. v. Mosseri, 736
F.3d 1339, 130 (11th Cir. 2013). Given the posture of the
appeal, we express no view on the validity of the allegations or the merits of the claims.

A
Atherotech operated a laboratory that conducted
testing on blood cholesterol levels. Atherotech was
wholly owned by Atherotech Holdings, which was in
turn owned by three shareholders: Behrman Capital IV
LP, Behrman Brothers LLC, and Midcap Financial Investment, LP. Behrman Capital was the majority shareholder of Atherotech Holdings, owning 94% of its stock
and controlling three of five seats on its board of directors. Behrman Brothers—which was also Behrman
Capital’s general partner—and MidCap owned the remaining shares in Atherotech Holdings.
As part of its business, Atherotech paid physicians
who ordered blood cholesterol levels a processing and
handling fee, known as a P&H fee. Although Medicare
rules and regulations prohibit the payment of P&H fees,
Atherotech nevertheless submitted claims for those fees
to Medicare and other federal healthcare programs.
In 2012, the Department of Justice began to investigate Atherotech’s payments of P&H fees as a potential
violation of the False Claims Act, 31 U.S.C. §§ 3729-3730,
and the Anti-Kickback Statute, 42 U.S.C. § 1320a-7b.

4a
Violations of the False Claims Act can result in a
per-claim penalty of between $5,500 and $11,000, in addition to treble damages. See 31 U.S.C. § 3729(a).
Despite knowing of the investigation, Atherotech
continued to make P&H fee payments and submit Medicare claims for those payments. From January of 2011
through June of 2013, Medicare reimbursed Atherotech
about $35,691,000 for tests associated with P&H fee payments. The complaint alleges that, by June of 2013, Atherotech had up to $107,073,000 in contingent liabilities
for violations of the False Claims Act.
In 2013, as the DOJ investigation was ongoing, Atherotech borrowed $40.5 million under a credit agreement. Atherotech then executed a dividend recapitalization under which it paid Atherotech Holdings’ shareholders—Behrman Capital, Behrman Brothers, and
MidCap—dividends totaling $31,872,860.75. Behrman
Capital received $31,433,596.05; Behrman Brothers received $87,374.00; and MidCap received $351,890.70.
Behrman Capital distributed its portion of the dividend
to its limited partners and its general partner, Behrman
Brothers. Behrman Brothers in turn distributed its
share of the dividends to its members, along with the
portion it received from Behrman Capital as its general
partner.
By July of 2014, Atherotech could no longer pay
P&H fees, and its revenues decreased significantly.
From July through October of 2015, Behrman Capital invested $6.9 million in Atherotech to keep the business
afloat. Despite the influx of funds, Atherotech and Atherotech Holdings filed for bankruptcy in March of 2016.
The bankruptcy court appointed Mr. Reynolds as the

5a
Chapter 7 trustee for both companies, and he eventually
sold Atherotech’s assets for $19.6 million.

B
In March of 2018, Mr. Reynolds, as trustee for the
bankruptcy estates of Atherotech and Atherotech Holdings, filed a complaint in Alabama state court. The initial
complaint named 30 defendants: Behrman Capital; Behrman Capital’s 15 limited partners; Behrman Brothers;
Behrman Brothers’ 12 members; and MidCap. Mr.
Reynolds asserted several federal and state law claims
stemming from the dividend issued by Atherotech Holdings to its shareholders.
The defendants removed the case to the district
court under 28 U.S.C. § 1441, asserting that the complaint implicated significant federal issues, and alternatively under 28 U.S.C. § 1452(a), asserting that pursuant
to 28 U.S.C. § 1334 the district court had subject-matter
jurisdiction under the Bankruptcy Code. The district
court concluded that the case did not implicate a significant federal issue under § 1441, but held that Mr. Reynolds’ claims “arose under” the Bankruptcy Code or were
“related to” the bankruptcy proceedings of Atherotech
and Atherotech Holdings. As a result, it ruled that removal was proper under § 1452(a).
The defendants moved to dismiss for lack of personal jurisdiction under Rule 12(b)(2). The district court
granted their motions. It concluded that Bankruptcy
Rule 7004(d), which allows for nationwide service of process, see, e.g., Double Eagle Energy Services, L.L.C. v.
MarkWest Utica EMG, L.L.C., 936 F.3d 260, 264 (5th
Cir. 2019), did not apply because its jurisdiction was derivative of the Alabama state court. Turning to Alabama’s long-arm statute, the district court ruled that the

6a
defendants did not have minimum contacts with Alabama that would permit it to exercise personal jurisdiction over them. The district court, however, allowed Mr.
Reynolds to file a motion to amend his complaint and explain why doing so would not be futile.
In his motion to amend, Mr. Reynolds asserted that
the proposed amended complaint would “remedy the deficiencies cited” by the district court, and would drop
MidCap and the limited partners and members as defendants. See D.E. 109 at 2-3. He further stated that
“[t]he only two defendants named in the [a]mended
[c]omplaint” were Behrman Capital and Behrman
Brothers. See id. Consistent with this representation,
Mr. Reynolds’ amended complaint listed Behrman Capital and Behrman Brothers as the sole defendants.
Behrman Capital and Behrman Brothers moved to
dismiss the amended complaint for lack of personal jurisdiction under Rule 12(b)(2). Mr. Reynolds asserted
that there was personal jurisdiction under the Alabama
long-arm statute, and alternatively requested that the
district court transfer the case to the Southern District
of New York pursuant to 28 U.S.C. § 1406 if it concluded
that it lacked personal jurisdiction over the defendants.
The district court ruled that, under Alabama’s long-arm
statute, it could not exercise personal jurisdiction over
Behrman Capital and Behrman Brothers. It also concluded that transfer would be futile “because the derivative removal jurisdiction bars any federal court from
acquiring personal jurisdiction over this suit after its removal from a state court that lacked such personal jurisdiction.” The district court therefore dismissed Mr.
Reynolds’ amended complaint without prejudice.

7a
On September 9, 2019, Mr. Reynolds filed a notice of
appeal in which he included all the original defendants,
including MidCap. In his notice of appeal, Mr. Reynolds
sought to appeal the district court’s dismissal of both his
original and amended complaints.

II
As noted, Mr. Reynolds dropped MidCap as a defendant in his amended complaint. MidCap now argues
that this constituted a waiver by Mr. Reynolds of any
argument that the district court erred by initially dismissing it for lack of personal jurisdiction. We are not
persuaded.
An amended complaint supersedes and replaces the
original complaint. See Hoefling v. City of Miami, 811
F.3d 1271, 1277 (11th Cir. 2016); Dresdner Bank AG v.
M/V Olympia Voyager, 463 F.3d 1210, 1215 (11th Cir.
2006); Fritz v. Standard Sec. Life Ins. Co. of N.Y., 676
F.2d 1356, 1358 (11th Cir. 1982). We have held, however,
that a plaintiff does not waive his right to appeal the dismissal of a claim in the original complaint by amending
the complaint and omitting the dismissed claim. “[W]e
do not require a party to replead a claim following a dismissal under Rule 12(b)(6) to preserve objections to the
dismissal on appeal” where repleading “would have been
futile and would have resulted in a second dismissal[.]”
Dunn v. Air Line Pilots Ass’n, 193 F.3d 1185, 1191 n.5
(11th Cir. 2001). See also Varnes v. Local 191, Glass Bottle Blowers Ass’n of the United States and Canada, 674
F.2d 1365, 1370 (11th Cir. 1982) (“Varnes was not barred,
by consenting to the dismissal and filing the amended

8a
complaint, from raising on appeal the correctness of the
dismissal order.”).1
As the Tenth Circuit has explained, “a rule requiring plaintiffs who file amended complaints to replead
claims previously dismissed . . . in order to preserve
those claims merely sets a trap for unsuspecting plaintiffs with no concomitant benefit to the opposing party.”
Davis v. TXO Prod. Corp., 929 F.2d 1515, 1518 (10th Cir.
1991). We agree. “Without more, the action of the
amending party should not result in completely denying
the right to appeal the court’s ruling.” 6 Arthur R. Miller, Mary Kay Kane, & Benjamin Spencer, Federal Practice & Procedure § 1476 (3d ed. 2020 update).
Applying Dunn, we conclude that Mr. Reynolds did
not waive his right to appeal the district court’s dismissal of MidCap for lack of personal jurisdiction by failing
to name MidCap in the amended complaint because
amendment would have been futile. In dismissing
MidCap, the district court rejected Mr. Reynolds’ arguments that MidCap had the requisite minimum contacts
under Alabama’s long-arm statute, and, alternatively,
that Bankruptcy Rule 7004(d) could be used to obtain
personal jurisdiction over the defendants. Apparently,
Mr. Reynolds had no additional facts that could establish
minimum contacts for MidCap under Alabama’s
long-arm statute, and requesting for a second time that
the district court apply Bankruptcy Rule 7004(d) therefore would have been futile. Under these circumstances,
1

We had come to a similar conclusion in Wilson v. First Hous. Inv.
Corp., 566 F.2d 1235, 1238 (5th Cir. 1978), but that decision was vacated by the Supreme Court, see 444 U.S. 959 (1979), and as a result
it does not have any precedential force. See United States v. Sigma
Int’l, Inc., 300 F.3d 1278, 1280 (11th Cir. 2002) (en banc).

9a
Mr. Reynolds did not waive his right to appeal the district court’s dismissal of MidCap from the original complaint for lack of personal jurisdiction. See Dunn, 674
F.2d at 1191 n.5.2

III
“We review de novo the district court’s dismissal for
lack of personal jurisdiction.” Stubbs v. Wyndham Nassau Resort & Crystal Palace Casino, 447 F.3d 1357, 1360
(11th Cir. 2006).

A
The parties dispute whether the doctrine of derivative jurisdiction prevents the post-removal use of Bankruptcy Rule 7004(d) to establish personal jurisdiction
over the defendants. Mr. Reynolds contends that the
doctrine applies only to subject-matter jurisdiction, and
not personal jurisdiction. Behrman Capital and Behrman Brothers argue that the doctrine applies to both
types of jurisdiction, and urge affirmance. We provide
some background on the doctrine of derivative jurisdiction, and then turn to the parties’ arguments.
“[W]hen a federal court has jurisdiction, it also has a
‘virtually unflagging obligation . . . to exercise’ that authority.” Mate v. Lynch, 576 U.S. 143, 150 (2015) (citation omitted). But almost a century ago, in Lambert Run

2

Given our precedent in Dunn, we need not address MidCap’s reliance on United States ex rel. Atkinson v. PA. Shipbuilding Co., 473
F.3d 506, 516 (3d Cir. 2007) (explaining that “[i]f a party omits a
claim from an amended complaint that it would not have been futile
to replead, that party can still preserve the claim for appellate review by standing on the dismissed claim despite leaving it out of the
amended complaint”).

10a
Coal Co., the Supreme Court explained that “[t]he jurisdiction of the federal court on removal is, in a limited
sense, a derivative jurisdiction. If the state court lacks
jurisdiction of the subject-matter or of the parties, the
federal court acquires none, although it might in a like
suit originally brought there have had jurisdiction.” 258
U.S. at 382. The complaint in that case, which was filed
in state court and then removed to federal court, sought
to challenge and set aside an order of the Interstate
Commerce Commission. Because federal courts had exclusive jurisdiction over such claims, and because the
United States had not consented to be sued in state
courts, the Supreme Court held that the state court did
not have subject-matter jurisdiction to entertain the
complaint. And so, when the case was removed to federal court, that court also lacked subject-matter jurisdiction. See id. (“As the state court was without jurisdiction over either the subject-matter or the United States,
the District Court could not acquire jurisdiction over
them by the removal.”).
The Supreme Court has kept the doctrine of derivative jurisdiction alive over the years by sporadically applying it or discussing it. See, e.g., Gen. Inv. Co. v. Lake
Shore & M.S. Ry. Co., 260 U.S. 261, 288 (1922) (“When a
cause is removed from a state court into a federal court,
the latter takes it as it stood in the former. A want of
jurisdiction in the state court is not cured by the removal, but may be asserted after it is consummated.”);
Minnesota v. United States, 305 U.S. 382, 389 (1939) (applying the doctrine of derivative jurisdiction to dismiss
an action because the state court lacked subject-matter
jurisdiction); Freeman v. Bee Machine Co. Inc., 319 U.S.
448, 449-51 (1943) (discussing the doctrine of derivative

11a
jurisdiction and refusing to extend it to bar the post-removal amendment of the complaint); Arizona v. Manypenny, 451 U.S. 232, 242 n.17 (1981) (describing the doctrine of derivative jurisdiction as well-settled). The doctrine, according to the Supreme Court, applies “even
where the federal court would have had jurisdiction if
the suit were brought there.” Freeman, 319 U.S. at 449.
See, e.g., Fed. Nat. Mortg. Ass’n v. LeCrone, 868 F.2d
190, 192 (6th Cir. 1989); Reid v. United States, 715 F.2d
1148, 1153-54 (7th Cir. 1983).
Over the years, the doctrine has been criticized by
some courts and commentators. See, e.g., Washington v.
Am. League of Pro. Baseball Clubs, 460 F.2d 654, 658
(9th Cir. 1972) (describing the doctrine as a “kind of legal
tour de force that most laymen cannot understand, particularly in a case where the federal court not only has
subject matter jurisdiction, but has exclusive subject
matter jurisdiction”); 14C Charles Alan Wright, Arthur
R. Miller, Edward H. Cooper et al., Federal Practice &
Procedure § 3722 (Rev. 4th ed. 2020) (collecting cases
criticizing the doctrine of derivative jurisdiction and
characterizing the criticism as “deserved”). In 1985,
Congress partially abrogated the doctrine of derivative
jurisdiction by adding a new subsection (e) to 28 U.S.C.
§ 1441. The amended § 1441(e) provided that a federal
court on removal was “not precluded from hearing and
determining any claim” simply “because the State court
from which such civil action is removed did not have jurisdiction over that claim.” 28 U.S.C. § 1441(e) (1986). In
2001, we said that the amended § 1441(e) “abrogated the
theory of derivative jurisdiction.” Hollis v. Florida
State University, 259 F.3d 1295, 1298 (11th Cir. 2001).

12a
The 1985 amendment to § 1441 resulted in some disagreement as to whether Congress had abrogated the
doctrine of derivative jurisdiction for all removal statutes or just for § 1441. See generally Palmer v. City Nat.
Bank, 498 F.3d 236, 245 (4th Cir. 2007) (explaining the
different views of the Fourth and Eighth Circuits). The
disagreement proved to be relatively short-lived, for in
2002 Congress again amended § 1441, “creating a new §
1441(e) and redesignating the prior § 1441(e) as § 1441(f)
and slightly changing its language.” Id. The new (and
current) § 1441(f) now reads as follows (emphasis ours):
“Derivative removal jurisdiction.-- The court to which a
civil action is removed under this section is not precluded from hearing and determining any claim in such
civil action because the [s]tate court from which such
civil action is removed did not have jurisdiction over that
claim.”3
Following the 2002 amendments to § 1441, several
of our sister circuits have held that the “under this section” language in the new § 1441(f) abrogates the doctrine of derivative jurisdiction only in cases removed to
federal court pursuant to § 1441. These circuits have
therefore continued to apply the doctrine in cases removed under other federal statutes, such as 28 U.S.C. §
1442. See Palmer, 498 F.3d at 244-46; Rodas v. Seidlin,
656 F.3d 610, 615-25 (7th Cir. 2011); Bullock v. Napolitano, 666 F.3d 281, 286 (4th Cir. 2012); Lopez v. Sentrillon Corp., 749 F.3d 348, 350-51 (5th Cir. 2014); Conklin
v. Kane, 634 F. App’x 69, 73 (3d Cir. 2015). Accord 14C

3

Congress has also abrogated the doctrine of derivative jurisdiction in “patent, plant variety protection, and copyright cases.” See
28 U.S.C. § 1454(c). But this is not one of those types of cases.

13a
Federal Practice & Procedure § 3726. But cf. North Dakota v. Fredericks, 940 F.2d 333, 337 (8th Cir. 1991)
(holding, before the 2002 amendments, that the “policy
of Congress underlying new § 1441(e) supports the complete abandonment of the derivative-jurisdiction theory”). These decisions, however, are of limited value
here because they all involved scenarios where the state
court lacked subject-matter (not personal) jurisdiction.

B
The question for us is whether the doctrine of derivative jurisdiction applies to removed cases in which the
state court lacked personal jurisdiction over the defendants. Our answer, at least in this case, is that it does not.
We begin by acknowledging the obvious—though
the Supreme Court has applied the doctrine of derivative jurisdiction only in cases where the state court
lacked subject-matter jurisdiction, it has described the
doctrine as encompassing both subject-matter and personal jurisdiction. See, e.g., Manypenny, 451 U.S. at 242
n.17 (“[I]f the state court lacks jurisdiction over the subject matter or the parties the federal court acquires none
upon removal.”); Freeman, 319 U.S. at 449 (“[W]here a
state court lacks jurisdiction of the subject matter or of
the parties, the federal District Court acquires none on
removal of the case.”); Lambert Run Coal Co., 258 U.S.
at 382 (“If the state court lacks jurisdiction of the subject-matter or of the parties, the federal court acquires
none, although it might in a like suit originally brought
there have had jurisdiction.”). These characterizations
are dicta, but Supreme Court dicta “is not something to
be lightly cast aside.” F.E.B. Corp. v. United States, 818
F.3d 681, 690 n.10 (11th Cir. 2016) (noting that “there is
dicta . . . and then there is Supreme Court dicta”).

14a
Moreover, over the years a number of circuits have
applied the doctrine of derivative jurisdiction to require
dismissal in cases where the state court, prior to removal, lacked personal jurisdiction over the defendants
(usually due to ineffective service of process). See Aanestad v. Beech Aircraft Corp., 521 F.2d 1298, 1300 (9th
Cir. 1974); Meyer v. Indian Hill Farm, Inc., 258 F.2d
287, 290 (2d Cir. 1958); Garden Homes, Inc. v. Mason,
238 F.2d 651, 653 (1st Cir. 1956); Block v. Block, 196 F.2d
930, 933 (7th Cir. 1952). We can therefore understand
why the district court here applied the doctrine of derivative jurisdiction.
Giving the Supreme Court’s dicta the respect and
consideration it is due, and acknowledging the cases
cited above, we choose to go in a different direction. We
hold, for several reasons, that the doctrine of derivative
jurisdiction does not apply in cases where the state court
lacks personal jurisdiction over the defendants.
First, having acknowledged the importance of the
Supreme Court’s dicta, we note that there are specific
reasons in each of the derivative jurisdiction cases cited
above for the Court to have included the “of the parties”
language in its dicta (i.e., language that appears to encompass personal jurisdiction). In Lambert Run Coal
Co., for example, the question at issue involved federal
sovereignty. Thus, the issue of jurisdiction in that case
largely hinged on who the party was. The same is true
in Manypenny, which was a criminal case between a
state and a federal officer. And in Manypenny, the “of
the parties” language was not relevant to the outcome of
the case and appears only in a footnote.
Second, in Freeman, the Supreme Court acknowledged that Lambert Run Coal Co. had rejected the idea

15a
that jurisdictional defects were cured or waived by removal, but nonetheless held that district courts have the
power to cure or fix whatever jurisdictional defects existed. 319 U.S. at 452. The Court explained that the
Lambert Run Coal Co. line of cases stands for the proposition that removal, in and of itself, does not cure any
state court jurisdictional defects: “The Lambert Co. case
and those which preceded and followed it merely held
that defects in the jurisdiction of the state court either
as respects the subject matter or the parties were not
cured by removal but could thereafter be challenged in
the federal court.” Id. at 451. The Court held that, although removal “does not cure jurisdictional defects present in the state court action,” federal courts have “the
full arsenal of authority with which they have been endowed.” Id. at 452. Accordingly, the Court held that a
plaintiff could add a claim after removal—even though
that claim could not have been added in state court—because the federal rules allow such an amendment.
Under Freeman, defendants who remove their action to federal court do not waive their challenge to personal jurisdiction. But Freeman also means that the district court to which the case is removed has the “full arsenal of authority with which [it has] been endowed” to
establish personal jurisdiction over the defendants. Id.
Part of that “arsenal of authority,” as relevant here, is
Bankruptcy Rule 7004(d), which looks to a defendant’s
national contacts and permits nationwide service of process to establish personal jurisdiction.
Third, the Supreme court has consistently held that
once a case has been removed from state court to federal
court, federal law “govern[s] the mode of procedure[.]”
Granny Goose Foods, Inc. v. Brotherhood of Teamsters

16a
& Auto Truck Drivers Local No. 70, 415 U.S. 423, 438
(1974). See also Willy v. Coastal Corp., 503 U.S. 131,
134-35 (1992) (explaining that the Federal Rules of Civil
Procedure, pursuant to the language in Rule 81(c), “govern procedure after removal”); Freeman, 319 U.S. at 452
(“The jurisdiction exercised on removal is original not
appellate . . . . The forms and modes of proceeding are
governed by federal law.”) (citations omitted). It is
therefore difficult to understand why a federal statute
or rule governing personal jurisdiction (including one
providing for nationwide service of process) would not
control following the removal of a case from state court.
Indeed, we have suggested for this reason that the
doctrine of derivative jurisdiction does not apply to defects in personal jurisdiction. In Aguacate Consolidated
Mines, Inc., of Costa Rica v. Deeprock, Inc., 566 F.2d 523
(5th Cir. 1978), the plaintiff filed suit in Georgia state
court, and the defendant removed the action to federal
court. The Georgia district court, applying the Georgia
long-arm statute, concluded that it lacked personal jurisdiction over the defendant and dismissed the case. See
id. at 524. The plaintiff filed a motion for reconsideration, asking the Georgia district court to transfer the
case to an Alabama district court with personal jurisdiction over the defendant, and the Georgia district court
decided that transfer was appropriate. See id. The Alabama district court nevertheless dismissed the case, concluding that the Georgia district court “could not transfer a case under 28 U.S.C. § 1406(a) without first acquiring personal jurisdiction.” Id. On appeal, we reversed
and rejected the defendant’s argument based on the doctrine of derivative jurisdiction: “Although the jurisdiction of a federal court after removal is, in a limited sense,
derivative, removed actions become subject to federal

17a
rather than state rules of procedure.” Id. at 525. We
therefore allowed the transfer to take place even though
the Georgia district court (and presumably the Georgia
state court prior to removal) did not have personal jurisdiction over the defendant. See id. See also Bentz v.
Recile, 778 F.2d 1026, 1027 (5th Cir. 1985) (“Precedent of
this court supports transfer of a case pursuant to section
1406(a) or section 1404(a) from a federal Court lacking
personal jurisdiction to one possessing it, even if the case
was removed from a state court that itself lacked personal jurisdiction.”).
Fourth, we agree with the Third Circuit’s decision
in Witherow v. Firestone Tire & Rubber Co., 530 F.2d
160, 168-69 (3d Cir. 1976) (reasoning that the doctrine of
derivative jurisdiction requires dismissal only when the
state court lacks subject-matter jurisdiction over the
case, but holding that the plaintiff’s failure to comply
with the applicable state statute of limitations could not
be cured or remedied in federal court after removal). As
the Third Circuit explained, a “clear purpose of the derivative limitation” is that “federal courts not entertain,
on removal, actions that the state court could not entertain in the first instance.” Id. at 168. Cf. Welsh v. Cunard Lines, Ltd., 595 F. Supp. 844, 845-46 (D. Ariz. 1984)
(stating that the doctrine of derivative jurisdiction is “an
archaic and unhelpful principle,” and limiting its application by noting that “while [it is] still the law, [it] should
be carefully confined to cases where precedent unquestionably compels that it be applied”).
Fifth, the leading federal court treatises take the position that the doctrine of derivative jurisdiction is limited to cases in which the state court lacks subject-matter jurisdiction. See 14C Federal Practice & Procedure

18a
§ 3722 (“The derivative-jurisdiction principle pertains
only to subject-matter jurisdiction.”); 16 Daniel Coquillette et al., Moore’s Federal Practice § 107.23 (3d ed.
2020) (“Prior to the Judicial Improvements Act of 1985,
a case could not be removed to federal court if the state
court in which it had been initiated would not have had
subject-matter jurisdiction over the action.”); 1A Federal Procedure, Lawyers Edition § 1.723 (Oct. 2020 update) (the doctrine of derivative jurisdiction “is properly
applied, if to anything, to cases involving a defect in the
state court’s subject-matter jurisdiction over the case”).
Their view is not, of course, dispositive, but it is certainly
informative, and we find it persuasive.
Sixth, subject-matter jurisdiction and personal jurisdiction differ in an important respect. The former
(which is structural) cannot be waived or conferred by
the parties, while the latter (which is personal) can.
Compare Commodity Futures Trading Comm’n v.
Schor, 478 U.S. 833, 850-51 (1986), with Ins. Co. of Ireland, Ltd. v. Compagnie des Bauxites de Guinee, 456
U.S. 694, 703 (1982). We realize that this difference is
not a game-breaker, for it does not adequately explain
why the doctrine of derivate jurisdiction would deprive
a federal court of jurisdiction in a case where subject-matter jurisdiction is exclusively federal. But it
does provide an additional reason for not extending the
doctrine to the realm of personal jurisdiction.
The district court, then, could exercise jurisdiction
following removal notwithstanding the state court’s lack
of personal jurisdiction over the defendants under Ala-

19a
bama’s long-arm statute. And it could look to Bankruptcy Rule 7004(d) to decide whether personal jurisdiction existed.4

C
Bankruptcy Rule 7004(d) permits nationwide service of process: “The summons and complaint and all
other process except a subpoena may be served anywhere in the United States.” In this circuit, when a federal statute or rule “provides for nationwide service of
process, it becomes the . . . basis for federal jurisdiction.”
Republic of Panama v. BCCI Holdings (Luxembourg)
S.A., 119 F.3d 935, 942 (11th Cir. 1997).
When the district court applies Bankruptcy Rule
7004(d) on remand, it will need to ensure that the exercise of jurisdiction over the defendants is “not unconstitutionally burdensome” under the Fifth Amendment.
See id. at 947. The court must “examine a defendant’s
aggregate contacts with the nation as a whole rather
than [its] contacts with the forum state in conducting the
Fifth Amendment analysis.” Id. (citation omitted). Although a defendant’s contacts with the United States do
“not automatically satisfy the due process requirements
of the Fifth Amendment,” the burden is on a defendant
“to demonstrate that the assertion of jurisdiction in the
forum will make litigation so gravely difficult and inconvenient that [it] unfairly is at a severe disadvantage in
comparison to [its] opponent.” Id. at 947-48 (citations
and internal quotation marks omitted). If a defendant

4

Given our conclusion about the inapplicability of the doctrine of
derivative jurisdiction, we need not address Mr. Reynolds' argument that there was personal jurisdiction over the defendants under Alabama's long-arm statute.

20a
“makes a showing of constitutionally significant inconvenience, jurisdiction will comport with due process only
if the federal interest in litigating the dispute in the chosen forum outweighs the burden imposed on the defendant.” Id. at 948 (describing the factors a court should
consider). See also Managed Care Advisory Group,
LLC v. Cigna Healthcare, Inc., 939 F.3d 1145, 1158 (11th
Cir. 2019) (articulating the same standard).
There is one final matter. Our decision in Aguacate
Consolidated Mines, 566 F.2d at 525, makes it clear that
the district court could consider Mr. Reynolds’ alternative request for a transfer to the Southern District of
New York pursuant to 28 U.S.C. § 1406 even if there was
no personal jurisdiction over the defendants under Alabama’s long-arm statute. So, if the district court on remand decides that the exercise of personal jurisdiction
under Bankruptcy Rule 7004(d) would violate the Fifth
Amendment as to some or all of the defendants, it will
need to turn to the § 1406 motion to transfer. The defendants are correct that Aguacate Consolidated Mines
does not mandate a transfer, but it does require consideration of Mr. Reynolds’ motion.

IV
The district court’s dismissal of Mr. Reynolds’ complaint pursuant to the doctrine of derivative jurisdiction
is reversed, and the case is remanded for further proceedings consistent with this opinion.
REVERSED AND REMANDED.

21a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
2:18-cv-00514-ACA
THOMAS E. REYNOLDS, as Trustee,
Plaintiff,
v.
BEHRMAN CAPITAL IV L.P, ET AL.,
Defendants.
MEMORANDUM OPINION
Plaintiff Thomas Reynolds, as chapter 7 trustee for
the estates of Atherotech Inc. (“Atherotech”) and Atherotech Holdings (“Holdings”) filed suit against Behrman Capital IV L.P. (“Fund IV”) and Behrman Brothers IV LLC (“Behrman Brothers”), seeking to recover
purportedly fraudulent transfers made through a dividend recapitalization before Atherotech and Holdings
declared bankruptcy. Mr. Reynolds alleges that Fund IV
and Behrman Brothers engineered the dividend recapitalization, eventually bankrupting Atherotech and Holdings.
Fund IV and Behrman Brothers have filed a joint
motion to dismiss for lack of personal jurisdiction under
Federal Rule of Civil Procedure 12(b)(2).5 (Doc. 116). Mr.

5

Defendants also seek dismissal of the amended complaint for failure to state a claim under Federal Rule of Civil Procedure 12(b)(6).
Because the court concludes that it lacks personal jurisdiction over

22a
Reynolds has filed a motion to change venue as an alternative to dismissal. (Doc. 130).
Because the court finds that it lacks personal jurisdiction over each defendant, the court WILL GRANT
the motion to dismiss the amended complaint and WILL
DISMISS the case WITHOUT PREJUDICE. And because the court finds that, under the doctrine of derivative jurisdiction, transfer would be futile, the court
WILL DENY Mr. Reynolds’ motion to change venue.
I.

BACKGROUND

In deciding a Rule 12(b)(2) motion to dismiss for lack
of personal jurisdiction, the court must accept as true the
factual allegations made in the complaint unless the defendant contradicts those allegations with evidence.
Posner v. Essex Ins. Co., 178 F.3d 1209, 1215 (11th Cir.
1999). Accordingly, the court’s description of the facts
draws from both the uncontradicted allegations made in
the amended complaint and the evidence submitted by
the parties in connection with this motion.
1. Underlying Facts
The plaintiff, Mr. Reynolds, is the chapter 7 trustee
for the estates of Atherotech and Holdings. (Doc. 115 at
1). Atherotech is the wholly-owned subsidiary of Holdings. (Id. at 2 ¶ 3). Atherotech operated a laboratory that
conducted testing on blood cholesterol levels. (Id. at 9 ¶
25). It paid physicians who ordered such testing a processing and handling fee, also known as a P&H fee. (Id.
¶¶ 27–28). Although Medicare rules and regulations prohibit the payment of P&H fees, Atherotech would nevertheless submit claims that included the payment of
the defendants, the court will not address the request to dismiss
the amended complaint for failure to state a claim.

23a
those fees to Medicare and other federal healthcare programs.6 (Id. at 10 ¶¶ 29, 32). The Department of Justice
eventually began to investigate Atherotech’s payments
of P&H fees for violation of the federal False Claims Act,
31 U.S.C. §§ 3729–3730, and the federal Anti-Kickback
Statute, 42 U.S.C. § 1320a-7b, giving rise to $107,073,000
in contingent liabilities. (Doc. 115 at 11 ¶¶ 36–37).
In June 2013, while the DOJ was conducting its investigation, Atherotech issued a dividend recapitalization. (Doc. 115 at 13 ¶ 43). Mr. Reynolds alleges that investors in Holdings (Atherotech’s parent company) engineered the dividend recapitalization, knowing that it
would leave Atherotech insolvent in light of the contingent liabilities for violations of federal law relating to the
P&H fee payments. (Id. at 21 ¶ 73).
By July 2014—over a year after the dividend recapitalization—Atherotech could no longer pay P&H fees.
(Doc. 115 at 21 ¶ 70). Almost two years later, in March
2016, Atherotech and Holdings declared bankruptcy.
(Id. at 2–3 ¶ 7). The bankruptcy court appointed Mr.
Reynolds as the trustee for both estates (id. at 3 ¶ 8),
and he filed this lawsuit against a number of defendants.
(Doc. 1-1 at 9–40).
2. This Lawsuit
After several rounds of motions practice,7 the only
remaining defendants are Fund IV and Behrman Brothers. In the amended complaint, Mr. Reynolds asserts

6

Defendants dispute whether the practice was prohibited at the
time, but that dispute does not affect this opinion.
7
A more complete procedural history of the case is available at
Docs. 77 and 107.

24a
against them claims for intentionally fraudulent transfer, under 11 U.S.C. § 544 and Ala. Code § 8-9A-4(a); constructively fraudulent transfer, under 11 U.S.C. § 544
and Ala. Code §§ 8-9A-4(c), 8-9A-5(a); and recovery of
fraudulent transfer, under 11 U.S.C. § 550(a)(1). (Doc.
115 at 22–25). Mr. Reynolds alleges that Fund IV and
Behrman Brothers, both investors in Holdings, engineered the dividend recapitalization with the goal of
paying a dividend to themselves before the DOJ could
take action against Atherotech for the payment of P&H
fees. (Id. at 13 ¶ 43).
3. Facts Relating to Personal Jurisdiction
Fund IV is a private equity fund (see docs. 120-1,
120-2), which owned 94% of Holdings’ stock. (Doc. 115 at
3 ¶ 12). Behrman Brothers is Fund IV’s general partner,
and it also owned some portion of the remaining 6% of
Holdings’ stock. (Id. at 3 ¶ 13). According to the uncontroverted evidence, Fund IV and its general partner
(and co-defendant) Behrman Brothers lack both employees and operations. (Doc. 117 at 3 ¶ 8; Doc. 118 at 3 ¶ 10;
doc. 120 at 3 ¶ 10). For this reason, Fund IV entered a
management agreement with a non-party to this action,
Behrman Brothers Management Company (“BBMC”)
(not to be confused with the similarly-named Behrman
Brothers, which is a defendant in this action). (Doc. 118
at 3 ¶ 10; Doc. 120-1). Adding to this tangle, BBMC also
provided “advisory services” to Atherotech and Holdings. (Doc. 118 at 3 ¶ 11; Doc. 120-2).
Fund IV appointed a number of individuals to serve
on Holdings’ board of directors. Among those individuals
were Grant Behrman (a managing member of Behrman
Brothers and the president and managing partner of

25a
BBMC) (doc. 117 at 1–2 ¶¶ 3–5), Tom Perlmutter (a partner at BBMC) (doc. 118 at 1 ¶ 3), and Mark Visser (a
partner at BBMC) (doc. 120 at 1–2 ¶ 3). (See also Doc.
120 at 6 ¶ 19). Although Mr. Reynolds alleges that these
individuals “collectively oversaw and had direct involvement in the operations of Atherotech” (id. at 4 ¶ 15; see
also id. at 4– 5 ¶ 16), they attest that their actions in connection with Holdings were in their capacities as either
BBMC employees or Holdings board members, but
never on behalf of Fund IV or Behrman Brothers (doc.
117 at 2 ¶ 6; Doc. 118 at 2 ¶ 5; Doc. 120 at 5 ¶ 15). Because
Mr. Reynolds has presented no evidence to create an inference in support his allegation, and because Defendants have submitted sworn testimony contravening that
allegation, the court accepts the testimony of Mr. Behrman, Mr. Perlmutter, and Mr. Visser that they were not
acting on behalf of Defendants.
Mr. Reynolds also alleges that Fund IV and Behrman Brothers controlled Atherotech’s sole director and
its Chief Executive Officer, Michael Mullen. (Doc. 115 at
6–7 ¶¶ 17–19). Mr. Mullen became Atherotech’s CEO before Fund IV and Behrman Brothers invested in Holdings. (Compare Doc. 115 at 3 ¶ 12; Doc. 132 at 1 ¶ 2).
However, Mr. Mullen attests that he “understood that
there could be adverse consequences related to my employment with Atherotech if I refused to sign the [dividend recapitalization] paperwork that Behrman provided to me.” (Doc. 132 at 2 ¶ 6). His affidavit does not
clarify exactly to what or to whom he refers by the use
of the word “Behrman.” (See generally Doc. 132).
II.

DISCUSSION

Fund IV and Behrman Brothers jointly move to dismiss the complaint for lack of personal jurisdiction under

26a
Federal Rule of Civil Procedure 12(b)(2). (Doc. 116). Mr.
Reynolds responds that the court has both general and
specific personal jurisdiction over both defendants (doc.
125), but he asks that if the court finds jurisdiction lacking, the court transfer the case to the Southern District
of New York instead of dismissing it (doc. 130). The court
will address Defendants’ motion to dismiss first.
1. Defendants’ Motion to Dismiss
Under Rule 12(b)(2), the court may dismiss a complaint for “lack of personal jurisdiction.” To withstand a
Rule 12(b)(2) motion, the plaintiff “bears the initial burden of alleging in the complaint sufficient facts to make
out a prima facie case of jurisdiction.” United Techs.
Corp. v. Mazer, 556 F.3d 1260, 1274 (11th Cir. 2009).
Where the defendant challenges personal jurisdiction
and submits affidavits in support of its position, the burden shifts back to the plaintiff to produce evidence supporting the existence of personal jurisdiction. Meier ex
rel. Meier v. Sun Int’l Hotels, Ltd., 288 F.3d 1264, 1269
(11th Cir. 2002). To the extent the facts alleged in the
complaint are uncontroverted by the defendant’s evidence, the court must accept them as true, and “where
the plaintiff’s complaint and the defendant’s affidavits
conflict, the district court must construe all reasonable
inferences in favor of the plaintiff.” Madara v. Hall, 916
F.2d 1510, 1514 (11th Cir. 1990).
The plaintiff satisfies his burden of showing the existence of personal jurisdiction if he “presents enough
evidence to withstand a motion for directed verdict.”
Stubbs v. Wyndham Nassau Resort & Crystal Palace
Casino, 447 F.3d 1357, 1360 (11th Cir. 2006) (quotation
marks omitted). The court may grant a motion for a di-

27a
rected verdict “[i]f the facts and inferences point overwhelmingly in favor of one party, such that reasonable
people could not arrive at a contrary verdict.” Carter v.
City of Miami, 870 F.2d 578, 581 (11th Cir. 1989). On the
other hand, the court must deny a motion for a directed
verdict “if there is substantial evidence opposed to the
motion such that reasonable people, in the exercise of
impartial judgment, might reach differing conclusions.”
Id.
The Supreme Court has recognized two kinds of personal jurisdiction: general and specific. Bristol-Myers
Squibb Co. v. Superior Court of Cal., San Francisco
Cty., 137 S. Ct. 1773, 1779–80 (2017). “A court with general jurisdiction may hear any claim against that defendant, even if all the incidents underlying the claim occurred in a different State.” Id. at 1780. But a court with
specific jurisdiction may hear only claims that “aris[e]
out of or relate[ ] to the defendant’s contacts with the forum.” Daimler AG v. Bauman, 571 U.S. 117, 127 (2014)
(quotation marks omitted).
i. General Personal Jurisdiction
An entity is subject to general personal jurisdiction
where it “is fairly regarded as at home.” Bristol-Myers
Squibb Co., 135 S. Ct. at 1780. This means that the entity’s “affiliations with the State are so ‘continuous and
systematic’ as to render them essentially at home in the
forum State.” Goodyear Dunlop Tires Operations, S.A.
v. Brown, 564 U.S. 915, 919 (2011) (quoting Int’l Shoe Co.
v. Washington, 326 U.S. 310, 317 (1945)). Mr. Reynolds
contends that this court has general personal jurisdiction over Fund IV and Behrman Brothers because Atherotech and Holdings were their alter egos, effectively
making Fund IV and Behrman Brothers “at home”

28a
wherever Atherotech and Holdings were “at home.”
(Doc. 125 at 26–28).
Under Alabama law, a party can establish alter ego
liability by showing that (1) the dominant party had
“complete control and domination of the subservient corporation’s finances, policy and business practices so that
at the time of the attacked transaction the subservient
corporation had no separate mind, will, or existence of
its own”; (2) the dominant party misused that control;
and (3) the misuse of control proximately caused harm or
unjust loss. First Health, Inc. v. Blanton, 585 So. 2d
1331, 1334–35 (Ala. 1991).
Mr. Reynolds has not present evidence of alter ego
liability sufficient to withstand Defendants’ motion to
dismiss for lack of personal jurisdiction. Although he alleges that Fund IV and Behrman Brothers exerted complete control over Holdings and Atherotech, Fund IV
and Behrman Brothers have submitted evidence contravening those allegations. (See Docs. 117, 118, 120).
Specifically, Fund IV and Behrman Brothers have submitted affidavits from Holdings’ board members attesting that their actions were on behalf of Holdings or
BBMC, not on behalf of Fund IV and Behrman Brothers.
(Doc. 117 at 2 ¶ 6; Doc. 118 at 2 ¶ 5; Doc. 120 at 5 ¶ 15).
The burden therefore shifted to Mr. Reynolds to present
evidence from which “reasonable people, in the exercise
of impartial judgment, might reach differing conclusions.” Carter, 870 F.2d at 581. He has not done so, instead relying only on his unsupported allegations. The
evidence does not create even an inference that Fund IV
and Behrman Brothers were the alter egos of Holdings
and Atherotech, and the court cannot find that general

29a
personal jurisdiction over Fund IV and Behrman Brothers exists.
ii.

Specific Personal Jurisdiction

A court with specific personal jurisdiction may hear
only claims that “aris[e] out of or relate[ ] to the defendant’s contacts with the forum.” Daimler AG v. Bauman,
571 U.S. 117, 127 (2014) (quotation marks omitted). An
entity is subject to specific personal jurisdiction where
it has “minimum contacts” with the forum. Because state
courts are limited by the Fourteenth Amendment to the
United States Constitution, the question in those cases
is whether the court’s exercise of jurisdiction would violate the Fourteenth Amendment’s Due Process Clause.
See Sloss Indus. Corp. v. Eurisol, 488 F.3d 922, 925 (11th
Cir. 2007).
“Alabama’s long-arm statute permits the exercise of
personal jurisdiction to the fullest extent constitutionally permissible.” Sloss Indus. Corp. v. Eurisol, 488 F.3d
922, 925 (11th Cir. 2007). Thus, the court must examine
“whether exercising jurisdiction over the defendant
would violate the Due Process Clause of the Fourteenth
Amendment, which requires that the defendant have
minimum contacts with the forum state and that the exercise of jurisdiction not offend ‘traditional notions of
fair play and substantial justice.’” Id. (quoting Int’l Shoe
Co. v. Washington, 326 U.S. 310, 316 (1945)).
Mr. Reynolds argues that the court has specific personal jurisdiction over Fund IV and Behrman Brothers
because (1) individuals acting as agents of Fund IV and
Behrman Brothers took actions in and directed at Alabama; and (2) under Calder v. Jones, 465 U.S. 783, 788
(1984), Fund IV and Behrman Brothers’ actions outside

30a
Alabama caused injuries within Alabama. (Doc. 125 at
13–24).
Both of Mr. Reynolds’ arguments fail because the
evidence establishes that Fund IV and Behrman Brothers could not take any actions, whether inside or outside
Alabama. Mr. Grant, Mr. Perlmutter, and Mr. Visser all
attested that Fund IV and Behrman Brothers lack both
employees and operations. (Doc. 117 3 ¶ 8; Doc. 118 at 3
¶ 10; Doc. 120 at 3 ¶ 10). Mr. Reynolds has not presented
any evidence to the contrary; he attempts to refute the
evidence with allegations, but at this stage, allegations
do not suffice. See Meier, 288 F.3d at 1269. The evidence
before the court establishes that Fund IV and Behrman
Brothers could not act; therefore, they could not have
minimum contacts with Alabama, either under a traditional minimum contacts test or under the Calder test.
With respect to Mr. Reynolds’ agency argument, as
discussed above, the purported agents of Fund IV and
Behrman Brothers presented uncontroverted affidavits
attesting that they were not acting on behalf of Fund IV
or Behrman Brothers. (Doc. 117 at 2 ¶ 6; Doc. 118 at 2 ¶
5; Doc. 120 at 5 ¶ 15). And Mr. Reynolds has not presented any evidence from which the court could infer
that they were, in fact, acting as agents of Fund IV or
Behrman Brothers. The court cannot exercise personal
jurisdiction over Fund IV or Behrman Brothers on that
basis.
For the same reason, Mr. Reynolds’ reliance on the
Alabama Supreme Court’s decision in Ex parte Kohlberg
Kravis Roberts & Co., L.P., 78 So. 3d 959, 963 (Ala. 2011)
is inapposite. The limited partnerships at issue in that
case took direct actions relating to the acquisition of an

31a
Alabama company. Id. at 962–65, 973. Fund IV and Behrman Brothers, however, have presented evidence that
they cannot take any actions because they do not have
employees or operations.
The court concludes that Mr. Reynolds has failed to
meet his burden of establishing that the court has personal jurisdiction over Fund IV and Behrman Brothers.
Accordingly, the court WILL GRANT the motion to
dismiss the amended complaint.
2.

Mr. Reynolds’ Motion to Transfer Venue

After briefing on Defendants’ motion to dismiss was
complete, Mr. Reynolds filed an “alternative motion to
transfer” the case. (Doc. 130). In that motion, he requests that if the court finds that it lacks personal jurisdiction over Fund IV and Behrman Brothers, it transfer
the case to the Southern District of New York because
that court would have general personal jurisdiction over
them. (Id. at 5). He relies on 28 U.S.C. § 1406, which permits the court to transfer a case “to any district or division in which it could have been brought” if the interest
of justice requires such a transfer. See Goldlawr, Inc. v.
Heiman, 369 U.S. 463, 466–67 (1962) (holding that, under
§ 1406, a court that lacks personal jurisdiction over the
defendants may nevertheless transfer the case to a court
where venue is proper).
Fund IV and Behrman Brothers oppose transfer,
contending that the derivative removal jurisdiction doctrine would make transfer futile and that the interests of
justice do not permit transfer in any event. (Doc. 134 at
6–13). The court agrees that transfer would be futile because the derivative removal jurisdiction bars any federal court from acquiring personal jurisdiction over this

32a
suit after its removal from a state court that lacked such
personal jurisdiction.
As the court has discussed in more detail in a previous order (see doc. 107 at 8–11), the derivative removal
jurisdiction doctrine provides that “[t]he jurisdiction of
the federal court on removal is, in a limited sense, a derivative jurisdiction. If the state court lacks jurisdiction
of the subject-matter or of the parties, the federal court
acquires none, although it might in a like suit originally
brought there have had jurisdiction.” Lambert Run Coal
Co. v. Baltimore & O.R. Co., 258 U.S. 377, 382 (1922) (emphasis added). The doctrine applies in this case because
Defendants removed the case from state court under 28
U.S.C. § 1452(a), to which the derivative removal jurisdiction still applies. (See Doc. 107 at 9–10). Accordingly,
the only question this court (or any other federal court)
can consider in determining the existence of personal jurisdiction after removal under § 14529(a) is whether the
state court in which the case was originally filed would
have had personal jurisdiction over Defendants.
As the court explained above, the Alabama court in
which this case was filed lacked personal jurisdiction
over Defendants. Thus, under the derivative removal jurisdiction doctrine, no federal court to which the case is
removed can acquire personal jurisdiction, even if that
court would have had personal jurisdiction over the defendants in a lawsuit filed directly with that court. See
Lambert Run Coal Co., 258 U.S. at 382. Because transferring this case to the Southern District of New York
would be futile, the court WILL DENY Mr. Reynolds’
motion to transfer venue.

33a
III.

CONCLUSION

The court WILL GRANT the motion to dismiss the
amended complaint for lack of personal jurisdiction, and
WILL DISMISS the amended complaint WITHOUT
PREJUDICE. The court WILL DENY Mr. Reynolds’
motion to transfer venue.
The court will enter a separate order consistent with
this opinion.
DONE and ORDERED this September 3, 2019.

ANNEMARIE CARNEY AXON
UNITED STATES DISTRICT JUDGE

34a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
2:18-cv-00514-ACA
THOMAS E. REYNOLDS, as Trustee,
Plaintiff,
v.
BEHRMAN CAPITAL IV L.P, ET AL.,
Defendants.
MEMORANDUM OPINION
Plaintiff Thomas Reynolds, as chapter 7 trustee for
the estates of Atherotech Inc. (“Atherotech”) and Atherotech Holdings (“Holdings”) has sued thirty related
defendants, seeking to recover purportedly fraudulent
transfers of a dividend recapitalization performed by
Atherotech before Atherotech and Holdings declared
bankruptcy. The thirty defendants have filed four motions to dismiss for lack of jurisdiction under Federal
Rule of Civil Procedure 12(b)(2) or, in the alternative, for
failure to state a claim under Rule 12(b)(6). (Docs. 28, 33,
37, 39).
Because the court finds that it lacks personal jurisdiction over each defendant, the court WILL GRANT
the motions and WILL DISMISS each defendant
WITHOUT PREJUDICE. The court will also permit
Plaintiff Thomas Reynolds leave to file a proper motion
to amend the complaint, attaching to it a proposed
amended complaint that omits any facts, defendants, and

35a
claims that are related only to the previously severed
cases.

I.

BACKGROUND

In deciding a Rule 12(b)(2) motion to dismiss for lack
of personal jurisdiction, the court must accept as true the
factual allegations made in the complaint unless the defendant contradicts those allegations with evidence.
Posner v. Essex Ins. Co., 178 F.3d 1209, 1215 (11th Cir.
1999).
Before setting out the facts underlying this case, the
court must discuss how the parties are related to each
other. The plaintiff, Mr. Reynolds, is the chapter 7 trustee for the estates of Atherotech and Holdings. (Doc. 11 at 10). Atherotech was wholly owned by Holdings,
which was in turn owned by three shareholders: Defendant Behrman Capital IV LP (“Fund IV”), Defendant
Behrman Brothers IV, LLC (“Behrman Brothers”), and
Defendant MidCap Financial Investment, LP
(“MidCap”). (Doc. 1-1 at 15-16 ¶ 44-45). Fund IV was
Holdings’ majority shareholder, owning 94% of its stock
and controlling three of its five seats. (Id. at 23 ¶ 98).
Behrman Brothers—which was also Fund IV’s general
partner—and MidCap owned the remaining shares in
Holdings. (Id. at 17 ¶ 46, 24 ¶99).
The thirty defendants can be grouped as follows: (1)
Fund IV; (2) Fund IV’s fifteen limited partners (the
“Limited Partners”); (3) Behrman Brothers and its
twelve members (the “Behrman Brothers Defendants”);
and (4) MidCap. (See Doc. 1-1 at 16-18 ¶¶ 46-48).
According to the complaint, Atherotech operated a
laboratory that conducted testing on blood cholesterol

36a
levels. (Doc. 1-1 at 20 ¶ 67). It paid physicians who ordered such testing a processing and handling fee, also
known as a P&H fee. (Id. ¶¶ 69-70). Although Medicare
rules and regulations prohibit the payment of P&H fees,
Atherotech would nevertheless submit claims that included the payment of those fees to Medicare and other
federal healthcare programs.8 (Id. at 20-21 ¶¶ 71, 74).
In 2012, the Department of Justice began to investigate Atherotech’s payments of P&H fees for violation of
the federal False Claims Act, 31 U.S.C. §§ 3729-3730,
and the federal Anti-Kickback Statute, 42 U.S.C.
§ 1320a-7b. (Doc. 1-1 at 21 ¶¶ 78-79, 28 ¶ 122). Violations of the False Claims Act can result in a per-claim
penalty of between $5,500 and $11,000, in addition to treble damages. See 31 U.S.C. § 3729(a).
Despite knowing of the investigation, Atherotech
continued to make P&H fee payments. (See Doc. 1-1 at
22 ¶¶ 81-82). From January 2011 through June 2013,
Medicare reimbursed Atherotech about $35,691,000 for
tests Atherotech had run that were associated with
P&H fee payments. (Id. at 22 ¶ 82). Accordingly, Mr.
Reynolds contends that by June 2013, Atherotech had
$107,073,000 in contingent liabilities for violations of the
False Claims Act. (Id. ¶¶ 82-85).
In 2013, while the Department of Justice investigation was ongoing, Atherotech entered a credit agreement with certain lenders under which the lenders
loaned Atherotech $40.5 million. (Doc. 1-1 at 22-23
¶¶ 88-90, 23 ¶ 97). Atherotech then executed a dividend

8

Defendants dispute whether the practice was prohibited at the
time, but that dispute does not affect this memorandum opinion.

37a
recapitalization under which it paid Holdings’ shareholders—Fund IV, Behrman Brothers, and MidCap—
$31,559,342.45. (Id. at 22-23 ¶¶ 86, 97-98).
Fund IV received $31,433,596.05 from the dividend;
Behrman Brothers received $87,374; and MidCap received $351,890.70. (Doc. 1-1 at 23-24 ¶¶ 98-99). Fund
IV then distributed its portion of the dividend to its Limited Partners and its general partner Behrman Brothers, and Behrman Brothers distributed its portion of the
Fund IV dividend to its twelve members. (Doc. 1-1 at
24-25 ¶¶ 102, 104).
By July 2014, Atherotech could no longer pay P&H
fees and its revenues decreased significantly. (Doc. 1-1
at 29 ¶¶ 134-35). From July through October 2015, Fund
IV invested $6.9 million into Atherotech. (Id. at 30
¶¶ 137-39).
In March 2016, Atherotech and Holdings filed for
bankruptcy. (Doc. 1-1 at 16-17 ¶40). The bankruptcy
court appointed Mr. Reynolds as the Chapter 7 trustee
for both companies (id. at 16 ¶ 41), and he eventually
sold Atherotech’s assets for $19.6 million. (Id. at 30
¶ 141).
In 2018, Mr. Reynolds, as trustee for the estates of
Holdings and Atherotech, filed this lawsuit in state
court, asserting the following claims:9
Count One:

9

intentionally fraudulent transfer,
under 11 U.S.C. § 544 and Ala. Code

The complaint actually asserted thirteen claims against thirtytwo defendants. (See Doc. 1-1). The court severed the claims
against two of the defendants, and the only claims remaining in
this case are the ones listed in this memorandum opinion.

38a
§ 8-9A-4(a), against Fund IV and
MidCap
Count Two:

constructively fraudulent transfer,
under 11 U.S.C. § 544 and Ala. Code
§ 8-9A-4(c), against Fund IV and
MidCap

Count Three: constructively fraudulent transfer,
under 11 U.S.C. § 544 and Ala. Code
§ 8-9A-5(a), against Fund IV and
MidCap
Count Four:

recovery of fraudulent transfer, under 11 U.S.C. § 550(a)(1), against
Fund IV, Behrman Brothers, and
MidCap

Count Five:

recovery of fraudulent transfer, under 11 U.S.C. § 550(a)(1), against
Behrman Brothers and the Limited
Partners

Count Six:

recovery of fraudulent transfer, under 11 U.S.C. § 550(a)(2), against
Behrman Brothers and the Limited
Partners

Count Seven: recovery of fraudulent transfer, under 11 U.S.C. § 550(a)(2), against
Behrman Brothers’ members
(Doc. 1-1 at 30-34; see also Doc. 86 at 11; Doc. 87 at 11).
Defendants removed the case to this court under 28
U.S.C. § 1441 on the basis that the complaint implicated
significant federal issues and under 28 U.S.C. § 1452(a)
on the basis that, pursuant to 28 U.S.C. § 1334(a), the
court has jurisdiction under the Bankruptcy Code. (Doc.

39a
1 at 3, 11). The court concluded that this case does not
implicate a significant federal issue, but that Counts One
through Seven “arise under” or “relate to” the Bankruptcy Code. (Id. at 9-12). Accordingly, the court found
that removal of this action was authorized by § 1452(a).

II.

DISCUSSION

All of the defendants move to dismiss the complaint
under Federal Rule of Civil Procedure 12(b)(2) for lack
of personal jurisdiction and, in the alternative, under
Rule 12(b)(6) for failure to state a claim. Because the
court concludes that Mr. Reynolds has not established
that the court has personal jurisdiction over any of the
defendants, the court will not address any of the arguments about the merits of his claims.
1. Personal Jurisdiction
Under Federal Rule of Civil Procedure 12(b)(2), the
court may dismiss a complaint for “lack of personal jurisdiction.” To withstand a Rule 12(b)(2) motion, the plaintiff “bears the initial burden of alleging in the complaint
sufficient facts to make out a prima facie case of jurisdiction.” United Techs. Corp. v. Mazer, 556 F.3d 1260, 1274
(11th Cir. 2009). Where the defendant challenges personal jurisdiction and submits affidavits in support of its
position, the burden shifts back to the plaintiff to produce evidence supporting jurisdiction. Meier ex rel.
Meier v. Sun Int’l Hotels, Ltd., 288 F.3d 1264, 1269 (11th
Cir. 2002).
The Supreme Court has recognized two kinds of personal jurisdiction: general and specific. Bristol-Myers
Squibb Co. v. Superior Court of Cal., San Francisco
Cty., 137 S. Ct. 1773, 1779-80 (2017). Mr. Reynolds has
made no argument that the court has general personal

40a
jurisdiction over any of the defendants; accordingly, he
has waived any reliance on general personal jurisdiction
and the court will address only whether it has specific
personal jurisdiction.
A court with specific jurisdiction may hear only
claims that “aris[e] out of or relate[ ] to the defendant’s
contacts with the forum.” Daimler AG v. Bauman, 571
U.S. 117, 127 (2014) (quotation marks omitted). An entity is subject to specific personal jurisdiction where it
has “minimum contacts” with the forum. But “the forum” means different things depending on the case. In
most cases, Federal Rule of Civil Procedure 4 permits
the court to exercise personal jurisdiction over a defendant “who is subject to the jurisdiction of a court of general jurisdiction in the State where the district court is
located.” See Fed. R. Civ. P. 4(k)(1)(A), (C).10 Because
state courts are limited by the Fourteenth Amendment
to the United States Constitution, the question in those
cases is whether the court’s exercise of jurisdiction
would violate the Fourteenth Amendment’s Due Process Clause. See Sloss Indus. Corp. v. Eurisol, 488 F.3d
922, 925 (11th Cir. 2007). Under the Fourteenth Amendment, the court must determine whether the defendant
has “certain minimum contacts with [the State] such
that the maintenance of the suit does not offend traditional notions of fair play and substantial justice.” Int’l
Shoe Co., 326 U.S. at 316.
But Rule 4(k) also provides for personal jurisdiction
over a defendant “when authorized by a federal statute.”
Fed. R. Civ. P. 4(k)(l)(C). This refers to federal statutes
10

Rule 4(k)(2), which also addresses the court’s personal jurisdiction, does not apply in this case because this court does not have
exclusive jurisdiction over the claims asserted.

41a
that provide for nationwide service of process. See Republic of Panama v. BCCI Holdings (Luxembourg)
S.A., 119 F.3d 935, 942 (11th Cir. 1997) (“When a federal
statute provides for nationwide service of process, it becomes the statutory basis for personal jurisdiction.”). In
those cases, “the constitutional limits of due process derive from the Fifth, rather than the Fourteenth, Amendment.” Id. Under the Fifth Amendment, the court must
determine only whether the defendant has minimum
contacts with the United States. Id. at 946-47.
Mr. Reynolds contends that the court must analyze
whether it has personal jurisdiction under the Fifth
Amendment. (Doc. 85 at 8-11). He asserts that because
this court has already determined that it has subject
matter jurisdiction under the Bankruptcy Code, the
Federal Rules of Bankruptcy Procedure, which provide
for nationwide service of process, govern. (Id. at 8). Defendants argue that the doctrine of derivative removal
jurisdiction precludes a finding of personal jurisdiction
under the Fifth Amendment. (Doc. 95 at 9-12).11
In general, “[t]he jurisdiction of the federal court on
removal is, in a limited sense, a derivative jurisdiction.
If the state court lacks jurisdiction of the subject- matter
or of the parties, the federal court acquires none, although it might in a like suit originally brought there
have had jurisdiction.” Lambert Run Coal Co. v. Baltimore & O.R. Co., 258 U.S. 377, 382 (1922) (emphasis

11

Fund IV and the Behrman Brothers Defendants adopt and incorporate the Limited Partners’ arguments about the applicability of
Bankruptcy Rule 7004. (Doc. 93 at 8-9; Doc. 94 at 6-7). Although
MidCap does not expressly adopt the Limited Partners’ arguments,
its arguments are the same. (Doc. 92 at 2-6).

42a
added). The parties and the court refer to that rule as
the derivative removal jurisdiction doctrine.
Congress has abrogated the derivative removal jurisdiction doctrine for cases removed under 28 U.S.C.
§ 1441, the general removal statute. 28 U.S.C. § 1441(f)
(“The court to which a civil action is removed under this
section is not precluded from hearing and determining
any claim in such civil action because the State court
from which such civil action is removed did not have jurisdiction over that claim.”); see Hollis v. Fla. State
Univ., 259 F.3d 1295, 1298 (11th Cir. 2001). But the plain
language of § 1441(f) makes clear that Congress has not
abrogated the rule for cases removed under other removal statutes—it specifically applies only to civil actions “removed under this section.” See 28 U.S.C.
§ 1441(f) (emphasis added); see also Lopez v. Sentrillon
Corp., 749 F.3d 347, 351 (5th Cir.), as revised (Apr. 28,
2014) (“The [derivative removal jurisdiction] doctrine
therefore continues to apply to cases removed pursuant
to other statutes….); Bullock v. Napolitano, 666 F.3d
281, 286 n.2 (4th Cir. 2012) (“Congress has specifically
abrogated the doctrine of derivative jurisdiction in cases
removed under 28 U.S.C. § 1441, but it has not done so
with respect to actions removed under [a different removal statute].”); Rodas v. Seidlin, 656 F.3d 610, 618-19
(7th Cir. 2011) (“Congress has specifically abrogated the
[derivative removal jurisdiction] doctrine only with respect to removals under the general removal statute.
Given that Congress explicitly abrogated the doctrine of
derivative jurisdiction only with respect to removals under Section 1441, it supports the notion that—for whatever reasons—Congress intended to keep the doctrine
in place with regard to other removal provisions.”) (citations omitted).

43a
In supplemental briefing, Mr. Reynolds argues that
the derivative removal jurisdiction doctrine does not affect this court’s subject matter jurisdiction. (Doc. 104 at
1-5). While that may be true, the question here is not
whether the doctrine divests this court of subject matter
jurisdiction, but whether it precludes the court from conducting a Fifth Amendment analysis to determine
whether it has personal jurisdiction over the defendants.
It does.
Mr. Reynolds also argues that the doctrine does not
prevent a district court from acquiring personal jurisdiction after removal. (Id. at 5-10). But that is precisely
what the doctrine does: “[i]f the state court lacks jurisdiction of the subject-matter or of the parties, the federal
court acquires none, although it might in a like suit originally brought there have had jurisdiction.” Lambert
Run Coal Co., 258 U.S. at 382.
Accordingly, even though this court has found that
under 28 U.S.C. § 1334(b), it has subject matter jurisdiction over this case, the Fifth Amendment analysis is not
applicable in this case. Instead, the court must determine whether the state court in which the case was originally filed would have been able to exercise specific personal jurisdiction over the defendants.
“Alabama’s long-arm statute permits the exercise of
personal jurisdiction to the fullest extent constitutionally permissible.” Sloss Indus. Corp. v. Eurisol, 488
F.3d 922, 925 (11th Cir. 2007). Thus, the court must examine “whether exercising jurisdiction over the defendant would violate the Due Process Clause of the Fourteenth Amendment, which requires that the defendant
have minimum contacts with the forum state and that
the exercise of jurisdiction not offend ‘traditional notions

44a
of fair play and substantial justice.’” Id. (quoting Int’l
Shoe Co. v. Washington, 326 U.S. 310, 316 (1945)).
Mr. Reynolds did not argue in his briefs or at oral
argument that the Behrman Brothers Defendants and
the Limited Partners had minimum contacts with Alabama. (See Doc. 86 at 6-11 (brief in response to Behrman
Brothers); Doc.87 at 6-11 (brief in response to Limited
Partners)). Nor can the court discern from the complaint
any basis to find that those defendants had the requisite
minimum contacts. (See generally Doc. 1-1 at 9-40). Accordingly, the court WILL GRANT the motion to dismiss the Behrman Brothers Defendants and the Limited
Partners.
But Mr. Reynolds did argue that Fund IV and
MidCap each had minimum contacts with Alabama sufficient to give the court personal jurisdiction, based on the
test the Supreme Court set out in Calder v. Jones, 465
U.S. 783, 788 (1984). He asserts that (1) Fund IV and
MidCap had business dealings with Atherotech and
Holdings, which had their principal place of business in
Alabama; (2) they accepted fraudulently transferred
funds from Holdings; and (3) the fraudulently transferred funds caused the ruin of Atherotech. (Doc. 85 at
13-15; Doc. 88 at 4- 6).
In Calder, a national magazine based in Florida but
with a large circulation in California published an article
about the plaintiff. 465 U.S. at 784-85. The defendantreporter, who lived in Florida, frequently traveled to
California for business and called sources in California
for the information that appeared in the article. Id. at
785. Before publishing the article, he also called the
plaintiff at her California home and read the article to
her husband. Id. at 785-86. The other defendant was the

45a
president and editor of the magazine, who oversaw “just
about every function” of the magazine, “reviewed and
approved the initial evaluation of the subject of the article,” edited it before publication, and declined to print a
retraction after its publication. Id. at 786.
The Supreme Court held that because “California is
the focal point both of the story and of the harm suffered,” the defendants’ contacts with California were
sufficient to give the California court personal jurisdiction. Calder, 465 U.S. at 788-89. The Eleventh Circuit
has explained that the Calder effects test requires “the
commission of an intentional tort, expressly aimed at a
specific individual in the forum whose effects were suffered in the forum.” Licciardello v. Lovelady, 544 F.3d
1280, 1288 (11th Cir. 2008).
Mr. Reynolds contends that under Calder, he has
demonstrated that Fund IV had sufficient minimum contacts with Alabama because it “devised the scheme to
undertake the dividend recapitalization,” it was the driving force in executing the dividend recapitalization, and
the effects of the dividend recapitalization were felt in
Alabama. (Doc. 85 at 15). He contends that MidCap had
sufficient minimum contacts with Alabama because it accepted the fraudulent transfer and it had “business dealings with an ownership interest in” Atherotech and
Holdings. (Doc. 88 at 6).
Mr. Reynolds reads Calder too broadly. He cites a
number of cases that he says stand for the proposition
that the mere acceptance of a fraudulent transfer is
enough to establish minimum contacts with a State. (Id.
at 14-15). For example, he refers to In re Chase &
Sanborn Corp., 835 F.2d 1341 (11th Cir. 1988), reversed
on other grounds sub. nom Granfinanciera, S.A. v.

46a
Nordberg, 492 U.S. 33 (1989), which involved the question whether the court had personal jurisdiction based
on the defendants’ minimum contacts with the United
States. The Eleventh Circuit held that fraudulent transfers of U.S. currency made from New York and Miami
bank accounts into the defendants’ Miami bank accounts
sufficed to establish minimum contacts with the United
States. Id. at 1346. But Chase & Sanborn is distinguishable because in that case, the defendants had bank accounts located in the forum (the United States), whereas
in this case, no allegation or evidence indicates that
Fund IV or MidCap had Alabama bank accounts; the
only alleged connection to Alabama is that Atherotech
and Holdings had their principal place of business here.
The other cases Mr. Reynolds cites are non-binding
but persuasive decisions, and Mr. Reynolds again reads
them too broadly. See Montoya v. Akbari, 2016 WL
6783245, at *3 (Bankr. D.N.M. Nov. 14, 2016) (intentional
acceptance of fraudulent transfer enough to establish
minimum contacts with the United States); Mullins v.
TestAmerica, Inc., 564 F.3d 386, 401-02 (5th Cir. 2009)
(intentional acceptance of fraudulent transfer that defendant had engineered enough to establish minimum
contacts); Gambone v. Lite Rock Drywall, 288 F. App’x
9, 13-14 (3d Cir. 2008) (finding personal jurisdiction
where the defendant “participated in a fraudulent conveyance”); Sugartown Worldwide LLC v. Shanks, 2015
WL 1312572, at *6-7 (E.D. Pa. 2015)(finding personal jurisdiction where defendant was actively involved in the
fraudulent transfer); Sourcing Mgmt., Inc. v. Sinclair,
Inc., 118 F. Supp. 3d 899, 911-12 (N.D. Tex. 2015) (finding personal jurisdiction where the defendant “collude[ed] to transfer … assets”); Racher v. Lusk, 2013
WL 6037122, at *3 (W.D. Okla. 2013) (finding personal

47a
jurisdiction where defendants operated, managed, and
controlled the transferor); State Farm Mut. Auto. Ins.
Co. v. Tz’Doko V’Chesed of Klausenberg, 543 F. Supp. 2d
424, 430-31 (E.D. Pa. 2008) (finding personal jurisdiction
in a fraudulent transfer case where the plaintiff alleged
that the defendants’ actions were “malicious and outrageous”).
In Mullins, the Fifth Circuit expressed skepticism
“that a non-resident defendant’s receipt of assets transferred with an intent to hinder, delay, or defraud a creditor ipso facto establishes personal jurisdiction in the
state where a complaining creditor resides.” 564 F.3d at
400. This court agrees. “The ‘effects test in Calder does
not supplant the need to demonstrate minimum contacts
that constitute purposeful availment, that is, conduct by
the non-resident defendant that invoked the benefits
and protections of the state or was otherwise purposefully directed toward a state resident.” Id. All of the
cases Mr. Reynolds cite involve active involvement in
the fraudulent transfer, and that is the standard this
court must use as well.
Mr. Reynolds has not alleged facts or presented evidence showing that MidCap was involved enough in the
alleged scheme to have minimum contacts with Alabama. MidCap was a minority shareholder in Holdings
and Mr. Reynolds has not alleged that it was in any way
involved in the decision to do the dividend recapitalization. All Mr. Reynolds has presented is a vague statement in his brief—which constitutes neither a valid factual allegation nor evidence—that MidCap had “business dealings with” Atherotech and Holdings. (Doc. 88
at 6). He has not made allegations sufficient to allow this
court to exercise personal jurisdiction over MidCap.

48a
Similarly, Mr. Reynolds has not alleged facts sufficient to demonstrate that Fund IV was involved in Atherotech’s decision to do the dividend recapitalization.
The complaint alleges that Fund IV is the majority
shareholder of Holdings, controls a majority of Holdings’
board seats, and that it actively invested $6.9 million in
Holdings after the dividend recapitalization. (Doc. 1-1 at
23 ¶ 98, 30 ¶¶ 137-39). That may be enough to demonstrate that Fund IV controlled Holdings. But the complaint does not allege that either Fund IV or Holdings
exercised active control over Atherotech. (See Doc. 1-1
at 23 ¶98). To the contrary, the complaint alleges that
“Atherotech determined that it would execute a dividend
recapitalization.” (Id. at 22 ¶ 86) (emphasis added).
All of the wrongs alleged in the complaint stem from
the decision to execute the dividend recapitalization: at
the hearing Mr. Reynolds argued that the entire purpose
of the recapitalization was to liquidate the company before the DOJ’s investigation could result in massive
fines. Accordingly, without a connection drawn from
Fund IV to Holdings to Atherotech, Mr. Reynolds cannot meet the Calder effects test because he cannot show
that Fund IV committed an intentional act expressly
aimed at Atherotech. All he can show is that Atherotech
decided to execute a dividend recapitalization, perhaps
with fraudulent intent, and afterward Holdings distributed those funds to Fund IV and other investors.
At the hearing, Mr. Reynolds emphasized paragraph 143 of his complaint, in which he stated that “Fund
IV—by virtue of controlling three of the five seats on the
Holdings Board—controlled [Holdings and Atherotech]
and were insiders of [Holdings and Atherotech].” He argues that this paragraph is enough to establish that

49a
Fund IV exercised active control over both Holdings
and Atherotech. But the court cannot accept conclusory
allegations in determining whether a plaintiff has made
a prima facie case of personal jurisdiction. See Snow v.
DirecTV, Inc., 450 F.3d 1314, 1318 (11th Cir. 2006) (rejecting the plaintiffs “vague and conclusory allegations”
as “insufficient to establish a prima facie case of personal
jurisdiction” over the defendant). Mr. Reynolds must allege facts showing how Fund IV controlled Atherotech.
And all he has alleged so far is that Fund IV controlled
Holdings and Holdings was the sole shareholder of Atherotech. That allegation is insufficient.
Accordingly, the court WILL GRANT the motion
to dismiss all defendants for lack of personal jurisdiction.
2.

Amendment

At the hearing, Mr. Reynolds requested leave to
amend the complaint. Under Federal Rule of Civil Procedure 15, the time for amendment as a matter of course
has passed. See Fed. R. Civ. P. 15(a)(1). “In all other
cases, a party may amend its pleading only with the opposing party’s consent or the court’s leave. The court
should freely give leave when justice so requires.” Fed.
R. Civ. P. 15(a)(2). Justice does not require permitting
amendment when any amendment would be futile.
Jameson v. Arrow Co., 75 F.3d 1528, 1534-35 (11th Cir.
1996). In addition, a request for leave to amend should
be accompanied by “the substance of the proposed
amendment or … a copy of the proposed amendment.”
Cita Tr. Co. AG v. Fifth Third Bank, 879 F.3d 1151, 1157
(11th Cir. 2018).
Mr. Reynolds has represented that he could amend
his complaint to establish personal jurisdiction, but he
has not explained how. Fund IV opposed amendment,

50a
arguing that Mr. Reynolds has already had the opportunity to do discovery in other cases pending in state
court, including a long deposition of Fund IV’s corporate
representative.
The court cannot evaluate whether amendment
would be futile without more information. Accordingly,
the court will not allow amendment at this point. But
the court will allow Mr. Reynolds to file a formal motion
to amend, attaching to it his proposed amended complaint. The complaint as it currently stands includes
facts, defendants, and claims that the court has already
severed from this case. To aid the court in evaluating
the amended complaint, Mr. Reynolds must omit any
facts, defendants, and claims that are related only to the
severed cases.

III.

CONCLUSION

The court WILL GRANT the motions to dismiss on
the basis that the court lacks personal jurisdiction over
the defendants, and WILL DISMISS each defendant
WITHOUT PREJUDICE. The court will permit Mr.
Reynolds to file a motion amend the complaint. The
amended complaint must omit any facts, defendants, and
claims that are related only to the severed cases.
DONE and ORDERED this February 11, 2019.
________________________________
ANNEMARIE CARNEY AXON
UNITED STATES DISTRICT JUDGE

51a
APPENDIX D
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH
CIRCUIT
No. 19-13537-HH
THOMAS E. REYNOLDS,
PLAINTIFF - APPELLANT,
v.
BEHRMAN CAPITAL IV L.P., AXA PRIMARY FUND
AMERICA IV LP, AXA PRIVATE CAPITAL I, LP, CORE
AMERICAS/GLOBAL HOLDINGS, LP, GLOBAL FUND
PARTNERS II, LP, ET AL., DEFENDANTS - APPELLEES,
BEHRMAN BROTHERS MANAGEMENT CORPORATION, ET
AL., DEFENDANTS.
Appeal from the United States District Court for the
Northern District of Alabama
June 3, 2021
ORDER:
The motions of Appellees, Behrman Capital IV L.P., and
Midcap Financial SBIC, L.P., for stay of the issuance of
the mandate pending petition for writ of certiorari are
GRANTED to and including August 12, 2021, the stay
to continue in force until the final disposition of the case
by the Supreme Court, provided that within the period
above mentioned there shall be filed with the Clerk of
this Court the certificate of the Clerk of the Supreme
Court that the certiorari petition has been filed. The
Clerk shall issue the mandate upon the filing of a copy of
an order of the Supreme Court denying the writ, or upon

52a
expiration of the stay granted herein, unless the above
mentioned certificate shall be filed with the Clerk of this
Court within that time.
DAVID J. SMITH
Clerk of the United States Court of
Appeals for the Eleventh Circuit
ENTERED FOR THE COURT - BY DIRECTION

53a
APPENDIX E
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH
CIRCUIT
No. 19-13537-HH
THOMAS E. REYNOLDS,
PLAINTIFF - APPELLANT,
v.
BEHRMAN CAPITAL IV L.P., AXA PRIMARY FUND
AMERICA IV LP, AXA PRIVATE CAPITAL I, LP, CORE
AMERICAS/GLOBAL HOLDINGS, LP, GLOBAL FUND
PARTNERS II, LP, ET AL., DEFENDANTS - APPELLEES,
BEHRMAN BROTHERS MANAGEMENT CORPORATION, ET
AL., DEFENDANTS.
Appeal from the United States District Court
for the Northern District of Alabama
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
May 14, 2021
BEFORE: JORDAN, LAGOA, and BRASHER, Circuit
Judges.
PER CURIAM:
Midcap Financial SBIC, L.P. and Behrman Capital IV
L.P.’s Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.
(FRAP 35) Midcap Financial SBIC, L.P.’s Petition for

54a
Panel Rehearing is also denied. (FRAP 40). Berhman
Capital IV L.P.’s Rehearing En Banc is also treated as a
Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

55a
APPENDIX F
28 U.S.C. 1334 Bankruptcy cases and proceedings.
(a) Except as provided in subsection (b) of this section,
the district courts shall have original and exclusive jurisdiction of all cases under title 11.
(b) Except as provided in subsection (e)(2), and notwithstanding any Act of Congress that confers exclusive jurisdiction on a court or courts other than the district
courts, the district courts shall have original but not exclusive jurisdiction of all civil proceedings arising under
title 11, or arising in or related to cases under title 11.
(c)
(1) Except with respect to a case under chapter 15
of title 11, nothing in this section prevents a district
court in the interest of justice, or in the interest of
comity with State courts or respect for State law,
from abstaining from hearing a particular proceeding arising under title 11 or arising in or related to a
case under title 11.
(2) Upon timely motion of a party in a proceeding
based upon a State law claim or State law cause of
action, related to a case under title 11 but not arising
under title 11 or arising in a case under title 11, with
respect to which an action could not have been commenced in a court of the United States absent jurisdiction under this section, the district court shall abstain from hearing such proceeding if an action is
commenced, and can be timely adjudicated, in a
State forum of appropriate jurisdiction.
(d) Any decision to abstain or not to abstain made under
subsection (c) (other than a decision not to abstain in a

56a
proceeding described in subsection (c)(2)) is not reviewable by appeal or otherwise by the court of appeals under section 158(d), 1291, or 1292 of this title or by the Supreme Court of the United States under section 1254 of
this title. Subsection (c) and this subsection shall not be
construed to limit the applicability of the stay provided
for by section 362 of title 11, United States Code, as such
section applies to an action affecting the property of the
estate in bankruptcy.
(e) The district court in which a case under title 11 is
commenced or is pending shall have exclusive jurisdiction—
(1) of all the property, wherever located, of the
debtor as of the commencement of such case, and of
property of the estate; and
(2) over all claims or causes of action that involve
construction of section 327 of title 11, United States
Code, or rules relating to disclosure requirements
under section 327.

57a
APPENDIX G
28 U.S.C. 1441 Removal of civil actions.
(a) Generally.—
Except as otherwise expressly provided by Act of Congress, any civil action brought in a State court of which
the district courts of the United States have original jurisdiction, may be removed by the defendant or the defendants, to the district court of the United States for
the district and division embracing the place where such
action is pending.
(b) Removal Based on Diversity of Citizenship.—
(1) In determining whether a civil action is removable on the basis of the jurisdiction under section
1332(a) of this title, the citizenship of defendants
sued under fictitious names shall be disregarded.
(2) A civil action otherwise removable solely on the
basis of the jurisdiction under section 1332(a) of this
title may not be removed if any of the parties in interest properly joined and served as defendants is a
citizen of the State in which such action is brought.
(c) Joinder of Federal Law Claims and State Law
Claims.—
(1) If a civil action includes—
(A) a claim arising under the Constitution, laws,
or treaties of the United States (within the
meaning of section 1331 of this title), and
(B) a claim not within the original or supplemental jurisdiction of the district court or a claim
that has been made nonremovable by statute,

58a
the entire action may be removed if the action
would be removable without the inclusion of the
claim described in subparagraph (B).
(2) Upon removal of an action described in paragraph (1), the district court shall sever from the action all claims described in paragraph (1)(B) and
shall remand the severed claims to the State court
from which the action was removed. Only defendants against whom a claim described in paragraph
(1)(A) has been asserted are required to join in or
consent to the removal under paragraph (1).
(d) Actions Against Foreign States.—
Any civil action brought in a State court against a foreign state as defined in section 1603(a) of this title may
be removed by the foreign state to the district court of
the United States for the district and division embracing
the place where such action is pending. Upon removal
the action shall be tried by the court without jury.
Where removal is based upon this subsection, the time
limitations of section 1446(b) of this chapter may be enlarged at any time for cause shown.
(e) Multiparty, Multiforum Jurisdiction.—
(1) Notwithstanding the provisions of subsection (b)
of this section, a defendant in a civil action in a State
court may remove the action to the district court of
the United States for the district and division embracing the place where the action is pending if—
(A) the action could have been brought in a
United States district court under section 1369
of this title; or

59a
(B) the defendant is a party to an action which is
or could have been brought, in whole or in part,
under section 1369 in a United States district
court and arises from the same accident as the
action in State court, even if the action to be removed could not have been brought in a district
court as an original matter.
The removal of an action under this subsection
shall be made in accordance with section 1446 of
this title, except that a notice of removal may
also be filed before trial of the action in State
court within 30 days after the date on which the
defendant first becomes a party to an action under section 1369 in a United States district court
that arises from the same accident as the action
in State court, or at a later time with leave of the
district court.
(2) Whenever an action is removed under this
subsection and the district court to which it is removed or transferred under section 1407(j) [1]
has made a liability determination requiring further proceedings as to damages, the district
court shall remand the action to the State court
from which it had been removed for the determination of damages, unless the court finds that, for
the convenience of parties and witnesses and in
the interest of justice, the action should be retained for the determination of damages.
(3) Any remand under paragraph (2) shall not be
effective until 60 days after the district court has
issued an order determining liability and has certified its intention to remand the removed action
for the determination of damages. An appeal

60a
with respect to the liability determination of the
district court may be taken during that 60-day
period to the court of appeals with appellate jurisdiction over the district court. In the event a
party files such an appeal, the remand shall not
be effective until the appeal has been finally disposed of. Once the remand has become effective,
the liability determination shall not be subject to
further review by appeal or otherwise.
(4) Any decision under this subsection concerning remand for the determination of damages
shall not be reviewable by appeal or otherwise.
(5) An action removed under this subsection
shall be deemed to be an action under section
1369 and an action in which jurisdiction is based
on section 1369 of this title for purposes of this
section and sections 1407, 1697, and 1785 of this
title.
(6) Nothing in this subsection shall restrict the
authority of the district court to transfer or dismiss an action on the ground of inconvenient forum.
(f) Derivative Removal Jurisdiction.—
The court to which a civil action is removed under this
section is not precluded from hearing and determining
any claim in such civil action because the State court
from which such civil action is removed did not have jurisdiction over that claim.

61a
APPENDIX H
28 U.S.C. 1452 Removal of claims related to bankruptcy
cases.
(a) A party may remove any claim or cause of action in
a civil action other than a proceeding before the United
States Tax Court or a civil action by a governmental unit
to enforce such governmental unit’s police or regulatory
power, to the district court for the district where such
civil action is pending, if such district court has jurisdiction of such claim or cause of action under section 1334 of
this title.
(b) The court to which such claim or cause of action is
removed may remand such claim or cause of action on
any equitable ground. An order entered under this subsection remanding a claim or cause of action, or a decision to not remand, is not reviewable by appeal or otherwise by the court of appeals under section 158(d), 1291,
or 1292 of this title or by the Supreme Court of the
United States under section 1254 of this title.

